      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




October 22, 2009

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Massachusetts’ Compliance With the “Reimbursement of State Costs
               for Provision of Part D Drugs” Medicare Demonstration Project Requirements
               (A-01-09-00601)


Attached is an advance copy of our final report on Massachusetts’ compliance with the
requirements of the “Reimbursement of State Costs for Provision of Part D Drugs” Medicare
demonstration project. We will issue this report to the Massachusetts Executive Office of Health
and Human Services (the State agency) within 5 business days. The Centers for Medicare
& Medicaid Services (CMS) requested this review.

When Medicare Part D was implemented on January 1, 2006, prescription drug coverage for full-
benefit dually eligible beneficiaries was transferred from Medicaid to Medicare Part D. Despite
CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually eligible
beneficiaries did not enroll in or were not assigned to a Part D plan. As a result, some States
paid for these beneficiaries’ Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project. By submitting its “Section 402 Demonstration Application”
(Medicare demonstration application) to CMS, Massachusetts agreed to pay for full-benefit
dually eligible beneficiaries’ drug claims overseen by the State agency. CMS reimbursed the
State agency a total of $17,081,469 for Medicare demonstration project drug costs. The State
agency included $15,230,243 of this amount on its Medicaid Forms CMS-64. State agency
officials said that they planned to adjust the Forms CMS-64 after receiving reimbursement
through the demonstration project.

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.
Page 2 – Charlene Frizzera


The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. However, the State
agency claimed some drug costs to both the Medicaid program and the Medicare demonstration
project. Specifically, when we initiated our audit in November 2008, the State agency had not
adjusted its Forms CMS-64 to reflect $15,230,243 ($7,626,837 Federal share) in drug costs that
the State agency was reimbursed through the Medicare demonstration project in August and
December 2006 and June 2007 for the quarter ended March 31, 2006.

During our audit, the State agency adjusted its Forms CMS-64 for the quarters ended
December 31, 2008, and March 31, 2009, to account for $7,609,992 in drug costs reimbursed
through the Medicare demonstration project. State agency officials informed us that they
planned to adjust the Form CMS-64 for the quarter ended June 30, 2009, for the remaining
$16,845.

According to State agency officials, the State agency did not promptly adjust its Forms CMS-64
because of an administrative oversight.

We recommend that the State agency:

       refund $16,845 to the Federal Government and

       make future refunds to the Medicaid program in a timely fashion.

In written comments on our draft report, the State agency agreed with our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-09-00601.


Attachment
       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684

October 26, 2009

Report Number: A-01-09-00601

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, Massachusetts 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Massachusetts’ Compliance With the
‘Reimbursement of State Costs for Provision of Part D Drugs’ Medicare Demonstration Project
Requirements.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Curtis Roy, Audit Manager, at (617) 565-9281 or through email at Curtis.Roy@oig.hhs.gov. Please
refer to report number A-01-09-00601 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – JudyAnn Bigby, M.D.

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




    REVIEW OF MASSACHUSETTS’
      COMPLIANCE WITH THE
“REIMBURSEMENT OF STATE COSTS FOR
    PROVISION OF PART D DRUGS”
 MEDICARE DEMONSTRATION PROJECT
          REQUIREMENTS




                         Daniel R. Levinson
                          Inspector General

                           October 2009
                           A-01-09-00601
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure a smooth
transition to Medicare Part D, some full-benefit dually eligible beneficiaries did not enroll in or
were not assigned to a Part D plan. As a result, some States paid for these beneficiaries’
Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). On February 14, 2006, Massachusetts submitted its “Section 402
Demonstration Application” (Medicare demonstration application) to CMS. By submitting its
Medicare demonstration application, Massachusetts agreed to pay for full-benefit dually eligible
beneficiaries’ drug claims overseen by the Executive Office of Health and Human Services (the
State agency). The State agency’s participation in the demonstration project covered drug claims
with dates of service from January 1 through March 15, 2006, and related administrative costs
from January 1 through April 7, 2006.

CMS reimbursed the State agency a total of $17,081,469 for Medicare demonstration project
drug costs. The State agency included $15,230,243 of this amount on its Medicaid Forms
CMS-64. State agency officials said that they planned to adjust the Forms CMS-64 after
receiving reimbursement through the demonstration project.

OBJECTIVES

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.




                                                  i
SUMMARY OF FINDINGS

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. For example, the State
agency ensured that claims were for covered Part D drugs and for drug costs incurred during the
demonstration project’s effective dates.

However, the State agency claimed some drug costs to both the Medicaid program and the
Medicare demonstration project. Specifically, the State agency did not promptly adjust its Forms
CMS-64 to reflect $15,230,243 ($7,626,837 Federal share) in drug costs that the State agency
was reimbursed through the Medicare demonstration project for the quarter ended March 31,
2006. The State agency received reimbursement for these costs from the Medicare
demonstration project in August and December 2006 and June 2007. The State agency had not
adjusted its Forms CMS-64 to account for the payments as of November 2008, when we initiated
our audit.

During our audit, the State agency adjusted its Forms CMS-64 for the quarters ended
December 31, 2008, and March 31, 2009, to account for $7,609,992 in drug costs reimbursed
through the Medicare demonstration project. State agency officials informed us that they
planned to adjust the Form CMS-64 for the quarter ended June 30, 2009, for the remaining
$16,845.

According to State agency officials, the State agency did not promptly adjust its Forms CMS-64
to account for drug costs paid through the Medicare demonstration project because of an
administrative oversight.

RECOMMENDATIONS

We recommend that the State agency:

       refund $16,845 to the Federal Government and

       make future refunds to the Medicaid program in a timely fashion.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Benefit.........................................................1
              Full-Benefit Dually Eligible Beneficiaries ..........................................................1
              Medicare Part D Demonstration Project ..............................................................1
              Massachusetts’ Participation in the Medicare Part D Demonstration Project .....2

          OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................3
               Objectives ............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          DEMONSTRATION PROJECT DRUG CLAIMS.........................................................4

          DEMONSTRATION PROJECT DRUG COSTS ...........................................................4

          RECOMMENDATIONS.................................................................................................5

          STATE AGENCY COMMENTS....................................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-
benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. For example, if a beneficiary did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned the beneficiary to a plan. In addition, to facilitate
enrollment of dually eligible beneficiaries at the point of sale, CMS implemented a new
eligibility inquiry process for pharmacies to verify Part D plan assignments and employed
contractors.

Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually
eligible beneficiaries did not enroll in or were not assigned to a Part D plan. As a result, some
States paid for these beneficiaries’ Medicare Part D drugs during the transition period.

Medicare Part D Demonstration Project

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). The demonstration project permitted Medicare to fully reimburse
States for full-benefit dually eligible beneficiaries’ Part D drugs to the extent that the costs were
not recoverable from a Medicare Part D plan. 1

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed “Section 402 Demonstration Application” (Medicare
demonstration application) to CMS. By submitting Medicare demonstration applications, States
agreed to (1) require pharmacies to bill the Part D plan before relying on State payment (i.e., the

1
 In addition, the demonstration project provided payments to States for low-income subsidy-entitled beneficiaries’
(partial-benefit dually eligible beneficiaries) Part D drugs and for certain administrative costs.


                                                         1
State was the payer of last resort); (2) provide specific information to CMS on Part D drug
claims and administrative costs; (3) ensure that claims submitted were for covered Part D drugs;
(4) separate demonstration project claims from those payable under other programs; (5) submit
claims only for drug costs (not including beneficiary cost sharing) and administrative costs
incurred during the demonstration project’s effective dates; (6) report to CMS the number of
claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that Medicare funding
was not used as State Medicaid matching funds (State Medicaid Director Letter No. 06-001
(Feb. 2, 2006); CMS, Section 402 Demonstration Application Template: Reimbursement of
State Costs for Provision of Part D Drugs).

CMS required States to submit demonstration project claims directly to its contractor, Public
Consulting Group, which determined whether the claims were eligible for reimbursement. CMS
then reimbursed States for eligible claims.

Massachusetts’ Participation in the Medicare Part D Demonstration Project

On February 14, 2006, the Massachusetts Executive Office of Health and Human Services (the
State agency) submitted its Medicare demonstration application to CMS. The State agency
agreed to pay for full-benefit dually eligible beneficiaries’ drug claims and for partial-benefit
Part D enrollees entitled to assistance from State Pharmaceutical Assistance Programs (SPAP). 2
The State agency’s participation in the demonstration project covered drug claims with dates of
service from January 1 through March 15, 2006, and related administrative costs from January 1
through April 7, 2006.

The State agency processed drug claims for full-benefit dually eligible beneficiaries through its
Medicaid point-of-sale system and claimed the amounts on its Forms CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program,” which CMS
subsequently reimbursed at Massachusetts’ Federal medical assistance percentage (FMAP). 3
State agency officials stated that they planned to adjust the Forms CMS-64 after receiving
reimbursement through the demonstration project. CMS officials were aware that some States
had submitted demonstration project costs previously claimed on the Forms CMS-64 and orally
advised the States to appropriately adjust their Forms CMS-64 to remove claims paid by
Medicare.

The State agency submitted demonstration project claims for drug costs incurred on behalf of
full-benefit dually eligible beneficiaries to the Public Consulting Group and subsequently
received reimbursement from CMS totaling $17,081,469. The State agency also claimed
$453,349 for administrative costs related to the Medicare demonstration project.



2
 The Massachusetts SPAP included residents who were age 65 or older and residents who were under age 65,
worked 40 or fewer hours per month, met Commonwealth disability guidelines, and had gross annual household
incomes at or below 188 percent of the Federal poverty level.
3
The FMAP determines the Federal share of the Medicaid program. During our audit period (January 1 through
March 15, 2006), the FMAP for drug claims in Massachusetts ranged from 50 to 90 percent.



                                                      2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

Scope

The audit covered the State agency’s 227,475 drug claims for full-benefit dually eligible
beneficiaries submitted under the Medicare Part D demonstration project from January 1 through
March 15, 2006. We did not review the State agency’s drug claims for partial-benefit dually
eligible beneficiaries, nor did we determine whether pharmacies attempted to bill beneficiaries’
Part D plans before relying on State payment.

The audit also covered the State agency’s Medicare demonstration project drug costs for the
period January 1 through March 15, 2006, claimed on the Forms CMS-64. CMS reimbursed the
State agency a total of $17,081,469 for these Medicare demonstration project drug costs. The
State agency included $15,230,243 of this amount on its Medicaid Forms CMS-64. 4 We
reviewed only the State agency’s claims for drug costs. We did not review whether the State
agency complied with demonstration project requirements for administrative costs. We reviewed
only those internal controls necessary to achieve our objectives.

We performed fieldwork at the State agency’s offices in Boston, Massachusetts, from November
2008 through February 2009.

Methodology

To accomplish our objectives, we:

            reviewed applicable laws, regulations, and guidance;

            interviewed State agency officials to (1) obtain an understanding of their process for
             identifying and submitting full-benefit dually eligible beneficiary claims under the
             demonstration project and (2) determine whether they separated demonstration project
             claims from those payable under other programs;

            obtained from CMS a database of 227,475 drug claims for full-benefit dually eligible
             beneficiaries paid to the State agency under the demonstration project for the period
             January 1 through March 15, 2006;




4
    The remaining $1,851,226 comprised drug claims paid to the State agency only through the Medicare program.


                                                          3
        reconciled the total dollar amount of drug claims that the State agency reported on its
         Forms CMS-64 to its computerized claim-processing system for calendar year 2006;

        reviewed a judgmentally selected sample of 30 drug claims paid to the State agency
         under the demonstration project to determine whether (1) the dates of service were
         during the demonstration project’s effective dates, (2) the drugs were covered by
         Medicare Part D, and (3) any cost-sharing amounts (copayments) on the part of the
         beneficiary were not included in the claim;

        reviewed a judgmentally selected sample of 30 beneficiaries whose drug claims were
         paid under the demonstration project to determine whether these beneficiaries were
         dually eligible; and

        reviewed guidance issued by the State agency to the pharmacies, including guidance
         requiring them to submit Part D-eligible drug claims to Part D plans before billing the
         State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. However, the State
agency claimed some drug costs to both the Medicaid program and the Medicare demonstration
project.

DEMONSTRATION PROJECT DRUG CLAIMS

The State agency complied with certain provisions of the Medicare demonstration application
when claiming drug costs for full-benefit dually eligible beneficiaries. Specifically, the State
agency (1) provided specific information to CMS on Part D drug claims; (2) ensured that claims
submitted were for covered Part D drugs; (3) separated demonstration project claims from those
payable under other programs; (4) submitted claims only for drug costs incurred during the
demonstration project’s effective dates; and (5) reported to CMS the number of claims,
beneficiaries, and expenditures on a timely basis.

DEMONSTRATION PROJECT DRUG COSTS

Pursuant to Office of Management and Budget Circular A-87, “Cost Principles for State, Local,
and Indian Tribal Governments,” Att. A, §§ C.2.a and C.3.a (2 CFR, pt. 225, App. A, §§ C.2.a
and C.3.a), costs submitted under a Federal award must be reasonable and allocable to the
Federal award.


                                                4
The State agency claimed some drug costs to both the Medicaid program and the Medicare
demonstration project. Specifically, the State agency did not promptly adjust its Forms CMS-64
to reflect $15,230,243 ($7,626,837 Federal share) in drug costs that the State agency was
reimbursed through the Medicare demonstration project for the quarter ended March 31, 2006.
The State agency received reimbursement for these costs from the Medicare demonstration
project in August and December 2006 and June 2007. The State agency had not adjusted its
Forms CMS-64 to account for the payments as of November 2008, when we initiated our audit.

During our audit, the State agency adjusted its Forms CMS-64 for the quarters ended
December 31, 2008, and March 31, 2009, to account for $7,609,992 in drug costs reimbursed
through the Medicare demonstration project. State agency officials informed us that they
planned to adjust the Form CMS-64 for the quarter ended June 30, 2009, for the remaining
$16,845.

According to State agency officials, the State agency did not promptly adjust its Forms CMS-64
to account for drug costs paid through the Medicare demonstration project because of an
administrative oversight.

RECOMMENDATIONS

We recommend that the State agency:

       refund $16,845 to the Federal Government and

       make future refunds to the Medicaid program in a timely fashion.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency’s comments are included in their entirety as the Appendix.




                                               5
APPENDIX
                             APPENDIX: STATE AGENCY COMMENTS 




                                  The Commonwealth of Massachusetts
                              Executive Office of Health and Human Services
                                             Office of Medicaid
                                           One Ashburton Place



                                                                                                                "'-
 DEVAL L. PATRICK
                                            Boston, MA 02108                                               JUDYANN BIGBY, M.D.
      Governor
11MOI'HYP. MURRAY                                                                                          THOMAS R. DEHNER
 lieutenant Governor                                                                                         Medicaid Director




                 August 26, 2009

                 Michael J. Armstrong
                 Regional Inspector General, Audit Services
                 HHS/OIGfOAS
                 Region I
                 JFK Federal Building
                 Boston, MA 02203

                 RE: Audit Report No: A-01-09-00601
                 Review of Massachusetts' Compliance with the 'Reimbursement of State Costs for Provision of Part
                 o Drugs 'Medicare Demonstration Project Requirements·

                 Dear Mr. Armstrong,

                 Thank you for the opportunity to review and comment on draft Audit R:eport No: A-01-09-00601
                 "Review of Massachusetts' Compliance with the 'Reimbursement of Slate Costs for Provision of
                 Part 0 Drugs 'Medicare Demonstration Project Requirements"

                 We appreciate the time, effort, and comments we received from your team, over the course of this
                 engagement. VVe are in agreement with the report.

                 The following is our specific response to recommendations in the report :

                 •	    MassHealth will return $16,845 on the QE 06/09 eMS 64 report
                       Mass Health will make future refunds in a timely manner

                 Thank you and please feel free to call me if you have any questions or concerns.




                 ~~~~--~ 

                 Thomas Dehner
                 Medicaid Director
